         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Quick Reaction Report




       Lack of Project Plan Resulted in
       Transition and Contractor
       Performance Problems for the
       Institutional Controls Tracking System

       Report No. 09-P-0128

       March 25, 2009
Report Contributors                           Rudolph M. Brevard
                                              Cheryl Reid
                                              Neven Morcos




Abbreviations

EPA         U.S. Environmental Protection Agency
IC          Institutional Controls
ICTS        Institutional Controls Tracking System
OIG         Office of Inspector General
OSRTI       Office of Superfund Remediation and Technology Innovation
SDMS        Superfund Document Management System
SMP         System Management Plan
                       U.S. Environmental Protection Agency                                                   09-P-0128
                                                                                                          March 25, 2009
                       Office of Inspector General


                       At a Glance
                                                                               Catalyst for Improving the Environment

Why We Did This Review             Lack of Project Plan Resulted in
We performed this review in
                                   Transition and Contractor Performance Problems
response to an anonymous           for the Institutional Controls Tracking System
hotline complaint alleging
mismanagement of the                What We Found
Institutional Controls Tracking
System (ICTS) project being        Lack of compliance with established project management procedures resulted in
developed by the Office of         transitional problems in 2005 that delayed ICTS development and negatively affected
Superfund Remediation and          contractor performance. Although we could not substantiate the mismanagement
Technology Innovation              claims alleged in the hotline complaint, the absence of key decision documents and
(OSRTI).                           significant turnover of key ICTS personnel could have contributed to the
                                   complainant’s perception that ICTS project decisions were made in a haphazard
Background                         manner. Had OSRTI documented its key decisions, as required by EPA guidance,
                                   institutional documents would have been available to answer communication and
In 2003, the U.S.                  project questions that impacted the ICTS project.
Environmental Protection
Agency’s (EPA’s) Superfund         In April 2006, OSRTI assigned a certified project manager to oversee ICTS
program acquired a contract to     development. The project manager took steps to develop a System Management Plan
develop ICTS to make               for ICTS and provided leadership and direction to help OSRTI overcome challenges
information available via the      with contractor transitions. In 2007, ORSTI merged ICTS with the Superfund
Internet. In 2005, OSRTI           Document Management System (SDMS). More work is needed to ensure that OSRTI
purchased a Task Order under a     documents its processes for overseeing system development activities and conducting
different contractor to continue   quality management reviews to ensure the System Management Plan is kept current.
ICTS development. System
Life Cycle Management               What We Recommend
guidance outlines EPA’s
system development                 We recommend that the Director, Office of Superfund Remediation and Technology
requirements. The procedures       Innovation, Office of Solid Waste and Emergency Response:
require that a project have a
System Management Plan that         •   Document procedures for overseeing development activities for the SDMS
serves as the primary                   project as prescribed by EPA System Life Cycle Management guidance.
managerial document to              •   Conduct and document a review of SDMS system documentation to ensure the
control, assess, and document           document is current. If needed, direct the contractor to update the
the system.                             documentation.
                                    •   Create a Plan of Actions and Milestones in EPA’s Automated Security Self
                                        Evaluation and Remediation Tracking system for the above two
For further information, contact
our Office of Congressional,
                                        recommendations.
Public Affairs and Management
at (202) 566-2391.                 We met with OSRTI to discuss the report’s findings. OSRTI agreed with the report’s
                                   recommendations, and provided a complete corrective action plan to address the
To view the full report,
                                   report’s recommendations. OSRTI management indicated that some elements of the
click on the following link:
www.epa.gov/oig/reports/2009/      report did not provide the current operational status of the ICTS application or the
20090325-09-P-0128.pdf             appropriate timeframe of the weaknesses found, and we modified the report as
                                   appropriate to address management’s concerns.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL



                                         March 25, 2009

MEMORANDUM

SUBJECT:               Lack of Project Plan Resulted in Transition and Contractor
                       Performance Problems for the Institutional Controls Tracking System
                       Report No. 09-P-0128


FROM:                  Rudolph M. Brevard
                       Director, Information Resources Management Assessments
                       Office of Mission Systems

TO:                    James Woolford
                       Director, Office of Superfund Remediation and Technology Innovation
                       Office of Solid Waste and Emergency Response


This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the
problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $155,121.

Action Required

We have closed this report in our audit tracking system based on the comments regarding
corrective actions in your e-mail dated March 4, 2009. We believe the proposed actions, when
implemented, will adequately address the report’s findings and recommendations. Please
provide updated information in EPA’s Management Audit Tracking System as you complete
each planned corrective action or revise any corrective actions and/or milestone dates. If you are
unable to meet your planned milestones, or believe other corrective actions are warranted, please
send us a memorandum stating why you are revising the milestones or why you are proposing
alternative corrective actions, as required by EPA Manual 2750.
We would like to thank your staff for their cooperation. We have no objections to the further
release of this report to the public. This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact me at (202) 566-0893
or brevard.rudy@epa.gov; or Cheryl Reid, Project Manager, at (919) 541-2256 or
reid.cheryl@epa.gov.
Lack of Project Plan Resulted in                                                                                                09-P-0128
Transition and Contractor Performance Problems
for the Institutional Controls Tracking System




                                       Table of Contents
Purpose .............................................................................................................................    1

Background .......................................................................................................................       1

Scope and Methodology ..................................................................................................                 1

Findings .............................................................................................................................   2

           Lack of SMP Contributed to Miscommunication.......... .........................................................               2
           Project Delays Resulted from Insufficient System Testing and Documentation...................                                 3

Recommendations............................................................................................................              4

Agency Comments and OIG Evaluation.............................................................................                          4

Status of Recommendations and Potential Monetary Benefits....................................                                            6



Appendix
    A         Distribution .........................................................................................................     7
                                                                                      09-P-0128


Purpose
The Office of Inspector General (OIG) of the U.S. Environmental Protection Agency (EPA)
performed this review due to an anonymous hotline complaint that alleged mismanagement of
the Institutional Controls Tracking System (ICTS) project. The ICTS was being developed by
the Office of Superfund Remediation and Technology Innovation (OSRTI), within EPA’s Office
of Solid Waste and Emergency Response. We performed a limited review of OSRTI’s
management oversight processes for the development of ICTS.

Background

EPA’s vision for managing Institutional Controls (IC) information is through an integrated ICTS.
ICs are non-engineered measures, such as administrative and legal controls over land or resource
use, which minimize human exposure to contaminants and protect the integrity of a remedy.
ICs are tools used on Superfund, Brownfields, Federal Facilities, Underground Storage Tanks,
and Resource Conservation and Recovery Act clean-ups. Prior to ICTS, EPA systems did not
capture IC information at the level of detail to track, monitor, and distribute information to
stakeholders. Also, none of EPA’s systems allowed public queries and information distribution
at the individual IC objective or instrument level.

In 2002, the Assistant Administrator for Solid Waste and Emergency Response announced the
goal to make more hazardous site information available to the public. OSRTI began to develop
ICTS to capture land use controls and present the information on the Internet. By 2004, ICTS
allowed EPA regions and offices to input data into ICTS. By the end of 2004, EPA developed an
IC strategy to make sure the Agency required and monitored ICs at Superfund sites. In 2005,
OSRTI further developed ICTS to expand the amount of data or related data fields to make the
information more useful in applying the IC strategy. In 2007, ORSTI began efforts to merge
ICTS with the Superfund Document Management System (SDMS). This effort, along with plans
to integrate the Comprehensive Environmental Response, Compensation, and Liability
Information System with SDMS, were considered essential in EPA’s plan to consolidate
Superfund-related data distributed among various EPA systems.

EPA’s System Life Cycle Management procedures outline EPA’s system development
requirements. The procedures require that a project have a System Management Plan (SMP).
This plan is the main managerial document and serves as a portfolio of required documents used
by system managers to control, assess, and document the system. The SMP should have a
project quality assurance plan and decision papers. The project quality assurance plan provides
guidance on development of products created to make sure they are substantively accurate and
conform to a standard project management structure. Decision papers summarize those aspects of
the analysis and decisions of a given project phase that are important to program management and
requests approval to continue the project.

Scope and Methodology
We performed this audit from October 2008 through February 2009 at EPA Headquarters in
Washington, DC, in accordance with generally accepted government auditing standards. These


                                               1
                                                                                        09-P-0128


standards require that we plan and perform the audit to obtain sufficient and appropriate evidence
to provide a reasonable basis for our findings and conclusions based on the audit objectives. We
believe the evidence obtained provides a reasonable basis for our findings and conclusions.

We assessed management control processes for developing of ICTS. We reviewed contract and
system documents prepared between 2003 and 2008 relevant to the hotline complaint. We also
spoke with current and past ICTS managers and Office of Acquisition Management’s contract
officer to learn about ICTS development history and contractor performance.

We did not review whether the ICTS contractor complied with the contract provisions or
safeguarded resources. Therefore, the user of this report would not be able to determine whether
(1) funds awarded for ICTS work were spent according to the contract, or (2) EPA took adequate
steps to safeguard resources.

We had not performed past audits of ICTS, so no follow-up was performed during this audit.

Findings

Lack of compliance with project management procedures resulted in problems that delayed ICTS
development and had a negative effect on contractor performance. Although we could not
substantiate the claims of mismanagement alleged in the hotline complaint, the absence of key
decision documents and high turnover of key ICTS staff could have contributed to the perception
that ICTS project decisions were made in a haphazard manner. Had OSRTI documented its key
decisions in an SMP, as required by EPA guidance, institutional documents would have existed
to communicate and answer project questions during transition of ICTS project staff.

Internal controls do not guarantee the success or prevent mismanagement of a project. However,
such controls provide a means to manage the risk associated with a complex project like ICTS.
Documenting key decisions on various risk factors is a key component of a project plan.
Whether it is contractual risks or risks in personnel retention, documentation serves as proof of
management’s due diligence as stewards of resources. Office of Management and Budget
Circular A-123, Management's Responsibility for Internal Control, states that documents for
management controls and other significant events must be clear and available for examination.
Without documenting key oversight decisions, management lacks information needed to ensure
assigned staff is meeting responsibilities and key decisions are having the desired effect.

Lack of SMP Contributed to Miscommunication

Prior to April 2006, OSRTI had not created an SMP that included documents for management
decisions that governed development of ICTS. We requested historical documents from the
beginning of the ICTS project and were told by earlier ICTS managers there were none. We
further learned that throughout the initial development phases of ICTS, there had been many
changes in staff responsible for managing ICTS development. Changes included the assistant
administrator, system owner, project manager, and contractor. These factors contributed to the
transitional problems because communication channels were not kept open as staff rotated and
historical documents were not available, so newly assigned project staff could know prior


                                                2
                                                                                         09-P-0128


decisions made. This problem could have been minimized had OSRTI documented key project
decisions as they occurred and maintained the documentation in an SMP. The current project
manager sent us a copy of an SMP. The project manager said that when he took over in April
2006, it was one of his early directions to the contractor to create an SMP. Although the project
manager took steps to correct this issue, we found that many of the SMP documents are in draft
status and OSRTI should conduct a review to ensure needed documents are current and
approved.

Project Delays Resulted from Insufficient System Testing and Documentation

The ICTS project also had significant project delays when the Agency switched contractors in
January 2005. OSRTI purchased a task order under EPA’s existing contract, “Information
Technology Solutions.” OSRTI managers said there were contractor performance concerns and
a subsequent poor performance evaluation. In response, the new contractor cited that system
requirements were not complete and system documents were dated. Also, the contractor stated
that there was missing information on data elements that were needed for them to do their work.
EPA did not dispute this statement and replied:

       The system delivered…was never tested. It is more than likely that some of the
       problems that emerged…were already present in the application, but since the
       application was neither tested nor used, problems lay dormant.

In response to our discussion draft report, OSRTI disagreed that the system was “never” tested.
They stated that due to differences between EPA’s staging and production environments, the
testing in staging proved insufficient. As a result, problems quickly surfaced in the production
application. OSRTI indicated it reviewed the processes used to move an application to
production, which led to an overhaul of the processes. OSRTI indicated it was able to
subsequently redeploy ICTS.

EPA’s system life-cycle management processes are designed to make sure management is
involved at key decision points, obtain and sustain the Agency’s commitment, and coordinate
systems-related activities. Project planning and tracking are vital to the success of the project.
Project planning helps set up reasonable plans for building a system, while project tracking
provides assurance that the project plan is being followed. The Agency’s Automated Security
Self Evaluation and Remediation Tracking system is used to create Plans of Actions and
Milestones for identified system problems. Because OSRTI had not initially followed key
system development practices in project planning and tracking, it had communication and
contractor performance problems that led to OSRTI putting into production a version of ICTS
that had significant quality problems. Although OSRTI appointed a certified project manager to
further oversee ICTS and the SDMS project, it is incumbent upon management to document its
processes for managing the SDMS project and conduct quality assurance reviews to make sure
the processes are being followed as intended.




                                                3
                                                                                      09-P-0128


Recommendations
We recommend that the Director, Office of Superfund Remediation and Technology Innovation,
Office of Solid Waste and Emergency Response:

   1. Document procedures for overseeing the development activities for the SDMS project as
      prescribed by EPA System Life Cycle Management guidance. The procedures should
      contain steps to ensure that:
           a. The new SMP for SDMS is kept current and management decisions are
              documented as they occur.
           b. Testing of SDMS is completed as prescribed by EPA guidance.

   2. Conduct and document a review of SDMS documentation to ensure the documents are
      current. If needed, direct the contractor to update system documents.

   3. Create a Plan of Actions and Milestones in EPA’s Automated Security Self Evaluation
      and Remediation Tracking system for the above recommendations.

Agency Comments and OIG Evaluation
On February 26, 2009, we met with OSRTI management to discuss the discussion draft version
of our report. OSRTI said the discussion draft did not provide the current status of ICTS and
should reflect that OSRTI integrated ICTS with SDMS. OSRTI also said the report did not
provide the timeframe for when noted weaknesses existed and indicated it has taken steps to
better manage SDMS. OSRTI asked OIG to reword the recommendations to make them apply to
SDMS and note that SDMS has an SMP. Lastly, OSRTI contended that it should not be inferred
that a problem in a complex system development project such as ICTS means automatic
deficiencies in project management.

We changed the report where appropriate to address OSRTI concerns. We agree that problems
that arise during system development do not automatically indicate project management
problems. Software quality, reliability, and maintainability are enhanced by having good project
documents for requirements, architecture, interfaces, test procedures, and management decisions.
This is important during changes in contractors and project managers. We believe good
documentation is the cornerstone of good project management. As such, we believe the lack of
key project documents, combined with the turnover of project managers, directly contributed to
perceptions that the ICTS project was not managed in accordance with prescribed system
development practices. Also, project management is designed to reduce project risks. Had
OSRTI kept key project documents, it would have had historical documents to better manage the
risks that affected ICTS during contractor and project management turnover.

After our meeting with OSRTI, management replied in an e-mail dated March 4, 2009, that it
will create an on-going review process to ensure that all major and non-major information
technology systems have current and complete SMPs. OSRTI also put Plans of Actions and
Milestones in EPA’s Automated Security Self Evaluation and Remediation Tracking system to




                                               4
                                                                                     09-P-0128


track completion of our report’s recommendations. We believe these corrective actions address
our recommendations and will help ensure ICTS meets its desired program goals.




                                              5
                                                                                                                                     09-P-0128



                                 Status of Recommendations and
                                   Potential Monetary Benefits


                                                                                                                           POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                         BENEFITS (in $000s)

                                                                                                              Planned
    Rec.    Page                                                                                             Completion    Claimed    Agreed To
    No.      No.                          Subject                         Status1        Action Official        Date       Amount      Amount

     1        4     Document procedures for overseeing the                  O           Director, Office of   04/01/2009
                    development activities for the SDMS project as                  Superfund Remediation and
                    prescribed by EPA System Life Cycle                               Technology Innovation
                    Management guidance. The procedures should
                    contain steps to ensure that:
                      a. The new System Management Plan for
                         SDMS is kept current and management
                         decisions are documented as they occur.
                      b. Testing of SDMS is completed as prescribed
                         by EPA guidance.

     2        4     Conduct and document a review of SDMS                   O           Director, Office of   10/01/2009
                    documentation to ensure the documents are                       Superfund Remediation and
                    current. If needed, direct the contractor to update               Technology Innovation
                    system documents.

     3        4     Create a Plan of Actions and Milestone in EPA’s         C           Director, Office of   03/04/2009
                    Automated Security Self Evaluation and                          Superfund Remediation and
                    Remediation Tracking system for the above two                     Technology Innovation
                    recommendations.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                6
                                                                                   09-P-0128


                                                                               Appendix A

                                    Distribution

Office of the Administrator
Acting Assistant Administrator for Solid Waste and Emergency Response
Director, Office of Superfund Remediation and Technology Innovation,
     Office of Solid Waste and Emergency Response
Agency Follow-up Official (the OCFO)
Agency Follow-up Coordinator
Acting General Counsel
Acting Associate Administrator for Congressional and Intergovernmental Relations
Acting Associate Administrator for Public Affairs
Audit Follow-up Coordinator, Office of Solid Waste and Emergency Response
Acting Inspector General




                                              7
